               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Rural Delivery Operations –
          Mail Count and Timekeeping
                  Processes

                       Audit Report




                                          December 13, 2013

Report Number DR-AR-14-001
                                                                     December 13, 2013

                                                          Rural Delivery Operations –
                                              Mail Count and Timekeeping Processes

                                                         Report Number DR-AR-14-001



BACKGROUND:
U.S. Postal Service Rural Delivery            and procedures and the National Labor
Operations has about 112,000 rural            Agreement to ensure rural mail count
letter carriers and associates delivering     results are collected, validated, and
mail on 72,407 routes. Salaries and           recorded accurately.
benefits total over $6 billion annually for
these employees. Per the National Rural       The rural timekeeping process is
Letter Carriers’ Association’s National       generally effective to ensure that
Labor Agreement, the mail count               carriers are paid, but is inefficient. The
establishes compensation and                  process has redundant input and
workhours for carriers on rural routes.       potential for errors and is not always
The mail count includes physically            performed daily. The manual
counting and recording the number and         timekeeping process exists due to a lack
types of mailpieces by route.                 of both funding and previous senior
                                              management support for design and
In the fiscal year 2013 mail count,           implementation of a new automated
management and carriers agreed to             system. The Postal Service plans to
count 32,248 (44 percent) rural routes.       pilot a new web-based rural timekeeping
Some routes, such as vacant regular           system to partially automate the process
routes, auxiliary routes, and routes          by directly uploading carriers’ workhours
assigned a right-hand drive vehicle,          into the Time and Attendance Collection
were mandated for the mail count.             System at the end of each pay period.
                                              Fully automating the rural timekeeping
Carriers manually record their                process would improve operational
workhours on timecards daily and              oversight and supervisor productivity
supervisors manually input carrier route      and save about $18.8 million annually.
time into a spreadsheet and into the
Time and Attendance Collection                WHAT THE OIG RECOMMENDED:
System.                                       We recommended the vice president,
                                              Delivery and Post Office Operations, in
Our objectives were to assess the rural       coordination with the vice president,
delivery mail count and timekeeping           Controller, develop a strategy to fully
processes.                                    automate the rural timekeeping process.

WHAT THE OIG FOUND:                           Link to review the entire report
The rural mail count process is generally
effective. Management followed policies
December 13, 2013

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER

                                E-Signed by James Ballard
                              VERIFY authenticity with e-Sign




                            for
FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Rural Delivery Operations – Mail Count and
                            Timekeeping Processes (Report Number DR-AR-14-001)

This report presents the results of our audit of the Rural Delivery Operations – Mail
Count and Timekeeping Processes (Project Number 13XG024DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Rural Delivery Operations –                                                                                        DR-AR-14-001
Mail Count and Timekeeping Processes



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Rural Delivery Operations ............................................................................................... 2

   Rural Mail Count .......................................................................................................... 2

   Rural Timekeeping ...................................................................................................... 2

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Flowchart of Rural Timekeeping Daily Process ........................................ 13

Appendix D: Index of Rural Timekeeping Forms ........................................................... 15

Appendix E: Management's Comments ........................................................................ 16
Rural Delivery Operations –                                                                              DR-AR-14-001
Mail Count and Timekeeping Processes



Introduction

This report presents the results of our audit of Rural Delivery Operations – Mail Count
and Timekeeping Processes (Project Number 13XG024DR000). We assessed the rural
delivery mail count and timekeeping processes. See Appendix A for additional
information about this audit.

U.S. Postal Service Rural Delivery Operations has about 112,000 rural letter carriers 1
and associates delivering mail on 72,407 routes. The National Labor Agreement 2
between the Postal Service and the National Rural Letter Carriers’ Association
(NRLCA) requires at least one annual mail count, usually conducted during February
and March. For the fiscal year (FY) 2013 mail count, management counted 32,248
routes from February 9 through March 2, 2013. Management counted all routes except
those that both the regular carrier and management agreed in writing to exclude. Some
routes, such as vacant regular routes, auxiliary routes, regular routes receiving
Delivery Point Sequence letter mail, and routes that have been assigned a right-hand
drive vehicle, must be counted and are not included in the opt-out process.

The mail count establishes each rural route’s evaluated 3 time and the salary of the
carrier on the route. Each day rural carriers manually record their workhour data on a
Postal Service (PS) Form 4240, Rural Carrier Trip Report. Supervisors then manually
input the time data from these forms on a spreadsheet and enter the data in the Time
and Attendance and Collection System (TACS) at the end of the pay period. See
Appendix D for the Index of Rural Timekeeping Forms.

Conclusion

The rural mail count process is generally effective. Management followed policies and
procedures and the National Labor Agreement to ensure that rural mail count results
were collected, validated, and recorded accurately.

Our observations and survey results determined the rural timekeeping process for
ensuring carriers are paid is generally effective, but inefficient. The timekeeping process
is performed manually by about 72,000 rural carriers and 12,000 supervisors daily.
Further, the process has redundant input and the potential for errors and is not always

1
  There are also over 60,000 rural carrier associates who work 1 day a week or as assigned.
2
  The National Labor Agreement requires an industrial engineering study of time standards that are included in the
rural carriers’ evaluated pay. This study is to be implemented by May 20, 2015. Based on information obtained from
the mail count, a set number of hours are assigned to accomplish each route's evaluated hours. The contract
between the Postal Service and NRLCA is effective until 2015.
3
  Rural letter carriers are compensated for their rural routes based on workload evaluations and are classified as
follows: H routes - carrier works 6 days a week; J routes - carrier has a relief day every other week; K routes - carrier
has a relief day every week; auxiliary routes - carrier works 6 days a week, normally evaluated at less than 39 hours
per week; mileage routes - carrier salary is based on the length of the route as determined by the official
measurement; and high-density L routes - carrier has a density of 12 boxes or more per mile, as verified by a mail
count.

                                                            1
Rural Delivery Operations –                                                                               DR-AR-14-001
 Mail Count and Timekeeping Processes


performed daily. The manual timekeeping process exists due to a lack of both funding
and previous senior management support for design and implementation of a new
automated system. The Postal Service intends to pilot a new web-based rural
timekeeping system, which will partially automate the process by directly uploading
carriers’ workhours into the TACS at the end of each pay period. Fully automating the
rural timekeeping process would improve operational oversight and supervisor
productivity, saving about $18.8 million annually.

Rural Delivery Operations

The rural mail count and timekeeping processes are generally effective; however, the
rural timekeeping process is inefficient.

Rural Mail Count

The FY 2013 rural mail count process was effective. We observed the FY 2013 National
Rural Mail Count process and procedures at 25 delivery units 4 and surveyed 64
districts. Management followed policies, 5 procedures, and the National Labor
Agreement with the NRLCA to ensure that rural mail count data and or results were
collected, validated, and recorded accurately in the Rural Route Mail Count (RRMC)
system.

Rural Timekeeping

The rural timekeeping process 6 was generally effective to ensure carriers' workhours
were recorded in the TACS; however, the process was inefficient. It is a manual process
with redundant input, requiring each carrier’s daily time and attendance information to
be entered multiple times.

    First, rural carriers manually record their daily time on PS Form 4240.

    Second, supervisors review each form and input the information into an electronic
     format – the automated PS Form 4240 Excel spreadsheet.

    Third, at the end of each pay period supervisors enter 7 the data from the
     spreadsheet into the TACS.

The process is labor-intensive for the 12,000 plus supervisors and creates the
opportunity for recording errors. Supervisors do not always perform their required daily


4
  The U.S. Postal Service Office of Insepctor General (OIG) visited the following districts and units – Atlanta (five
units), Cincinnati (six units), Dallas (four units), Detroit (seven units), and Fort Worth (three units).
5
  Rural Route Mail Count Guide, updated January 2013.
6
  Rural Carrier Timekeeping Procedures, Chapter 2.
7
  Managers must manually input time and attendance information into other programs. During a mail count all
timekeeping data has to be manually input into the RRMC system. Also, duplicate input includes the Enterprise
Resource Management (eRMS) program, which is used to track employee attendance and leave usage.

                                                            2
 Rural Delivery Operations –                                                                       DR-AR-14-001
  Mail Count and Timekeeping Processes


 timekeeping duties. This process has been in place since 1980. 8 See Appendix C for a
 flowchart of the process.

 We confirmed our observations during interviews with and surveys of supervisors. Over
 two-thirds 9 of our survey respondents indicated they would prefer rural delivery
 operations have an automated timekeeping system. Supervisors indicated the system
 should be automated using either an Electronic Badge Reader (EBR) or a scanner for
 the rural carriers’ daily time entries. Also, seven percent of the respondents indicated
 that interfacing automated PS Forms 4240 directly into the TACS would be an
 improvement over the manual process.

 Our survey also included questions regarding the time supervisors spend performing
 required rural timekeeping duties (see Table 1).

                      Table 1. Supervisor Rural Timekeeping Procedures

                                                                    Average Daily Time per
                                                         Method of  Route to Perform Tasks
                 Procedures                             Performance (minutes:seconds)
 Collect PS Forms 4240 from carrier
 cases.                                                     Manual                          0:18
 Collect replacement carriers’ PS Forms
 1234, Auxiliary Time Cards.                                Manual                          0:09
 Enter data from PS Forms 4240 into
 Excel spreadsheet (if used).                               Manual                          1:06
 Enter replacement carriers’ workhours
 from PS Forms 4240 and auxiliary time
 cards into relief carrier tracking sheet (if
 applicable).                                               Manual                          0:20
 Return PS Forms 4240 and replacement
 carriers’ PS Forms 1234 to designated
 locations.                                                 Manual                          0:17
 Average Daily Time Used per Route                                                          2:10
Source: OIG analysis from survey results.

 This manual timekeeping system increases the risk of:

     Omitted entries, which create opportunities for supervisors to incorrectly
      compensate employees.

     Input errors caused by poor handwriting or keying errors, which could cause
      incorrect payroll expenses.


 8
  Handbook M-38, Management of Rural Delivery Services, dated July 1980, refers to this process.
 9
  Results based on 646 of 940 respondents who answered the question, “If you could change the rural timekeeping
 process, what do you suggest changing and why?”

                                                        3
Rural Delivery Operations –                                                  DR-AR-14-001
 Mail Count and Timekeeping Processes


   Carriers incorrectly recording their reporting times or break times on the manual
    time cards (see Figure 1).

In Figure 1, we identified entries using red arrows from a rural carrier that may be
difficult to read and may require additional time to confirm with the employee or the
carrier. Manual recording can lead to supervisors incorrectly entering times employees.
There is an omitted entry in the leave column for January 17 that could result in
incorrect pay.

                            Figure 1. Completed PS Form 4240




Source: Postal Service.

The manual timekeeping process in rural delivery operations exists due to lack of both
funding and previous senior management support for design and implementation of a
new automated system. Field-level managers initiated the Rural Carrier EBR pilot
program in FY 2002. This pilot program operated for 10 years before the Postal Service


                                            4
Rural Delivery Operations –                                                      DR-AR-14-001
 Mail Count and Timekeeping Processes


terminated it in FY 2012. Management expressed an absence of upper management
support in the past and inadequate funding for an automated system.

The Postal Service intends to pilot a new web-based rural timekeeping program, the
Rural Workhour Tracker (RWHT). This new program was originally slated for release in
early FY 2013; however, due to shortages in programming staff and new priorities in
Information Technology (including 5-day delivery compatibility), its implementation has
been delayed until FY 2014. This system will only partially automate the process. Rural
carriers will still manually record their daily time entries and supervisors will still input
manual entries into the RWHT program. Fully automating the rural timekeeping process
would improve operational oversight and supervisor productivity and save about $18.8
million annually.

Recommendation

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Controller:

1.   Develop a strategy to fully automate the rural timekeeping process.

Management’s Comments

Management agreed with a limited part of the recommendation and disagreed with the
monetary impact.

Regarding recommendation 1, management stated it plans to work with the Controller to
explore, evaluate, and implement cost-effective automated solutions. Officials also
stated they will continue developing the RWHT application, which was conceived in FY
2012, with funds committed in FY 2013.

Management disagreed with the monetary impact, indicating the audit was based on a
judgmental non-representative sampling method deemed inappropriate to determine or
quantify any monetary findings and which has compromised the integrity and credibility
of the audit. Management believes the statement about the absence of upper
management support gives an incorrect impression regarding the termination of the
Rural Carrier EBR pilot. Management stated they suspended the EBR program after an
extensive pilot period because of the experience gained and numerous system issues.

Management also said the OIG had no offsetting cost in its finding estimate for the time
supervisors used an automated system, system development costs, or additional salary
and benefits for rural carriers to swipe/record their time. Officials indicated the OIG is
simply suggesting a shift from supervisor hours to craft hours, which would inflate cost
with no savings for supervisors. Further, officials said any changes would mandate an
Article 19 review under the applicable National Agreement and appropriate labor
organization.



                                              5
Rural Delivery Operations –                                                      DR-AR-14-001
 Mail Count and Timekeeping Processes


See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report. Management stated its plans to work with the Controller to explore, evaluate,
and implement cost-effective automated solutions. Further, management stated it will
continue developing the RWHT application, which it conceived in FY 2012.

Regarding management’s disagreement with the monetary impact methodology, the
OIG developed and distributed a web survey which was sent to all 64 districts with rural
routes. OIG instructed management to select both large and small delivery units to
complete the OIG survey questions. We received over 1,200 responses from 61
districts, a 95 percent participation rate. Surveying these districts with rural routes along
with the high response rate helped quantify the magnitude of the timekeeping issue, and
does not compromise the integrity and credibility of the audit. See Appendix B for detail
on monetary impact. Also, during OIG's visits to 56 rural delivery units to observe the
2013 Rural Mail Count procedures, we took the opportunity to also interview
management about timekeeping processes. Further, we acknowledged in the report that
changing the method of recording time would require an Article 19 review based on the
NRLCA Labor Agreement.

Management also expressed concern about the statement in the report that absence of
upper management support for the EBR pilot gives an incorrect impression regarding
the termination of the pilot. OIG conducted interviews with personnel at the Eagan
Accounting Service Center to obtain an understanding and information on the pilot.
Management provided OIG information on the original 10 EBR pilot sites and the 104
unofficial sites and their activities. We documented several reasons that led to the EBR
pilot termination including additional sites received inadequate training and support,
personnel changes, shifting priorities, funding issues, and increased technical issues
over the 10 years. Based on these reasons, we concluded there was an absence of
past upper management support and funding for the automated EBR timekeeping pilot.

Management also stated that OIG did not include offsetting cost for the timekeeping
system in its monetary impact estimate and is simply shifting time from supervisor hours
to craft hours. The OIG attempted a number of times to obtain cost estimates from
management on the potential cost for implementing an automated timekeeping system
for rural delivery operations. However, management was unable to provide the
information on implementing a new automated timekeeping system. Since we could not
obtain this information, the monetary impact was calculated based on the elimination of
duplicate work. Our analysis does not shift hours, but shows savings from automating
the timekeeping process and reducing timekeeping hours for supervisors.




                                              6
Rural Delivery Operations –                                                DR-AR-14-001
 Mail Count and Timekeeping Processes



The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                           7
Rural Delivery Operations –                                                                   DR-AR-14-001
 Mail Count and Timekeeping Processes


                              Appendix A: Additional Information

Background

The National Labor Agreement between the Postal Service and the NRLCA requires at
least one annual mail count. The mail count establishes each rural route’s evaluated
time to perform office and street duties. All mailpieces are physically counted and
recorded by either supervisors or managers, clerks, or carriers, including external
personnel 10 hired to accomplish this enormous task.

Results of the mail count include an established number of hours to accomplish each
route, which are called “evaluated hours.” These evaluated hours are posted for each
route in the delivery unit in the header section of PS Form 4240. To account for the
evaluated route times, each day rural carriers manually record their workhours on PS
Form 4240. A supervisor then manually inputs the data into a standalone Excel
spreadsheet. At the end of each pay period, the supervisor also enters data from the
Excel spreadsheet into the TACS.

The Postal Service initiated a pilot program in FY 2002 to automate the rural
timekeeping process using EBR and cancelled it in FY 2012. Management is
developing a new partially automated timekeeping system (the RWHT), scheduled for
initial deployment in FY 2014. Carriers will still manually record their work time, but
supervisors will now input the time into the RWHT web application to capture and track
daily rural carrier time. The RWHT will also provide various performance reports and
load the workhour data directly into the TACS.

Objectives, Scope, and Methodology

Our objectives were to assess the rural delivery mail count and the timekeeping
processes. To accomplish our objectives we:

    Reviewed documentation and applicable rural delivery 11 policies and procedures.

    Judgmentally selected 53 delivery units in the Seattle, Greater Indiana, Northland,
     Cincinnati, Atlanta, Dallas, Fort Worth, and Detroit districts to review unit-level mail
     count data controls and timekeeping processes and procedures.

    Performed analysis using Mail Condition Reporting System and End-of-Run reports,
     to determine mail volume before, during, and after the mail count.

    Interviewed Postal Service Headquarters Finance and Information Technology
     personnel regarding rural mail count data controls, the rural carrier EBR pilot
     program, and the RWHT program and other rural timekeeping opportunities.

10
  All personnel responsible for counting the mail must receive training.
11
  Handbook M-38; Handbook PO-603, Rural Carrier Duties and Responsibilities; and Handbook F-21, Time and
Attendance.

                                                     8
Rural Delivery Operations –                                                                      DR-AR-14-001
 Mail Count and Timekeeping Processes



      Surveyed district officials in 64 12 districts with rural delivery to obtain information
       regarding the results of the FY 2013 mail count. We asked questions regarding the
       pre-count, rural mail count, dispute resolution processes, and cost to conduct the
       mail count.

      Surveyed district managers in 64 districts with rural delivery routes to obtain
       information related to the time required to perform the rural timekeeping duties, their
       opinion of the current timekeeping system, and feedback on ways to improve the
       rural timekeeping process.

      Developed a flowchart of the rural timekeeping process starting with carriers
       recording daily times through supervisors making data entries into the TACS.

We conducted this performance audit from January through December 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 26, 2013, and included its
comments where appropriate.

We assessed the reliability of mail count volume data entered into the RRMC system.
To do this, we reviewed controls over volume recording, specifically validation that
entries manually recorded on PS Form 4239, Rural Route Mail Count, were correct. We
determined that the data were sufficiently reliable for the purposes of this report. We
reviewed rural timekeeping processes and procedures, not the accuracy of timekeeping
data. We did not assess the reliability of any computer-generated timekeeping data for
the purposes of this report.

Prior Audit Coverage

The OIG issued a report titled Delivery Operations Data Usage (Report Number DR-AR-
13-001, dated October 11, 2012). The report stated that city delivery operations have a
substantial number of systems and reports and amount of data to manage operations.
Also, new supervisors and managers did not always know how to use these tools and
data to manage operations. Further, our assessment of 32 prior delivery reports showed
ongoing issues with data usage, availability, and accuracy. For rural delivery, there is no
centralized system containing routes, workhours, and other management information.
These conditions occurred because management has not streamlined city delivery data
and reporting needs or re-emphasized data and report operating procedures for delivery
managers. Management indicated that the evaluated rural route structure does not
require a daily route management system. Also, there is limited ongoing coaching and
12
     The Chicago, New York Metro, and Triboro districts do not have any rural delivery routes.

                                                            9
Rural Delivery Operations –                                               DR-AR-14-001
 Mail Count and Timekeeping Processes


mentoring on the use of systems, performance reports, and data for new supervisors
and managers. Management agreed with all three recommendations in this report.




                                         10
Rural Delivery Operations –                                                                               DR-AR-14-001
 Mail Count and Timekeeping Processes


                                       Appendix B: Monetary Impact

               Recommendation                          Impact Category                           Amount
                     1                              Funds Put to Better Use 13                   $18,765,396

We calculated the monetary impact of eliminating supervisors’ time used to collect (and
return) PS Forms 4240 and redundant input of rural carriers’ time into the Excel
spreadsheet from the manually completed time cards. We based this impact on the
1,617 offices with 11 or more rural routes. These offices represent the units with the
largest impact on the number of workhours supervisors used to conduct rural
timekeeping duties. Eliminating manual timekeeping processes 14 will increase
supervisors’ availability for managing delivery operations at these units by an estimated
349,000 supervisor hours, saving about $18.8 million annually.

We estimated funds put to better use of $18,765,396 for reallocation of delivery unit
management's time to other required duties (see Table 2).

              Table 2. Average Annual Workhours Used and Cost of Manual
              Rural Timekeeping Input at Units with 11 or More Rural Routes

                         Annual Workhours                             Time and Cost
                     Average minutes per route
                     per pay period                                                        26:00
                     Average daily minutes                                                  2:10
                     Average minutes per day
                     used by supervisors                                                 69,121
                     Average hours per day used
                     by supervisors                                                        1,152
                     Average daily cost for
                     supervisors to collect, input,
                     and return rural carriers’
                                                                                 $       61,932
                     timesheets
                     Average hours used yearly
                     by supervisors                                                    349,061
                     Annual cost (303 delivery
                     days)                                                       $18,765,396
                    Source: OIG analysis as of August 2013.




13
   Funds that could be used more efficiently by automating the collection and input of daily rural timekeeping data.
This estimate does not reflect the initial costs of programming software to perform this function. Additionally, it does
not reflect the difference in time required to review daily clockrings in the TACS environment versus the current daily
review of PS Forms 4240.The OIG was unable to calculate either of these costs and neither Postal Service officials
nor staff were able to estimate these costs.
14
   Conversion of rural timekeeping from a manual PS Form 4240 to a permanent automated system will require
negotiation and agreement with the NRLCA.

                                                           11
Rural Delivery Operations –                                                                             DR-AR-14-001
 Mail Count and Timekeeping Processes


We calculated funds put to better use for reallocating management workhours using the
fully loaded hourly rate of an Executive and Administrative Schedule -17 supervisor of
$53.76 for FY 2014 for the 2-year projection.

We calculated the savings of 2:10 minutes per route per day by multiplying the
1,152 average workhour per day by 60 minutes, which equals 69,121 minutes. We then
divided 69,121 minutes by 31,853 rural routes 15 and then divided by 303 annual delivery
days.




15
  Number of rural routes in offices with 11 or more rural routes that were part of the Postal Service as of August
2013.

                                                          12
             Rural Delivery Operations –                                                                                         DR-AR-14-001
              Mail Count and Timekeeping Processes


                                Appendix C: Flowchart of Rural Timekeeping Daily Process
PS Form 4240, Rural Carrier Trip Report                                PS Form 1234, Auxiliary Time Card (Green
                                                                       Card)
Carrier completes entries for begin tour,
depart to route, return to office, end tour,                           Auxiliary carriers complete this form on an
break time (if taken), and any comments.                               as-needed basis when they perform work not on
                                                                       their assigned route.
Carrier completes daily.
                                                                       Auxiliary carrier completes as needed.




                                               Supervisor collects carrier
                                               time records.
                                               Supervisor completes daily.




       PS Form 4240, Rural Carrier Trip Report                                             Automated PS Form 4240 (4240 Excel
                                                                                           spreadsheet)
       Supervisor reviews each form for completeness of time
       entries, reviews any comments made, totals daily                                    Supervisor manually enters data from PS
       workhours, and initials form to show supervisory review                             Form 4240 for each route into a
       was completed.                                                                      corresponding worksheet.

       Supervisor completes daily.                                                         Supervisor completes daily.




       PS Form 1234, Auxiliary Time Card (Green Card)                                      Auxiliary Carrier Workhour Tracking

       Supervisor must review for entries completeness.                                    Supervisors must monitor auxiliary carrier
       Additionally, must compare PS Form 1234 entries to PS                               workhours to ensure these carriers do not
       Form 4240 entries for each auxiliary carrier to ensure                              unnecessarily exceed 40 workhours per week
       that time is not recorded twice.                                                    and incur overtime.

       Supervisor completes daily.                                                         Supervisor completes daily.




                                                  Supervisor returns carrier
                                                  time records.
                                                  Supervisor completes daily.




                                                                                13
Rural Delivery Operations –                                                                                              DR-AR-14-001
 Mail Count and Timekeeping Processes




  WEEKLY


  PS Form 4240, Rural Carrier Trip Report

  Supervisor reviews each form for completeness of time entries and then totals
  and records total weekly hours worked by both the regular and auxiliary carriers
  assigned to the route.

  Additionally, supervisor uses total workhours to monitor regular carriers’ total
  cumulative workhours to track 2080/2240 compliance.




  BI-WEEKLY
  Supervisor collects carrier
  time records.



            PS Form 3971, Request for Notification of
            Absence
                                                                                     Automated PS Form 4240 (4240 Excel
        PS Form 1234, Auxiliary Time Card (Green
                                                                                     spreadsheet)
        Card)

   PS Form 4240, Rural Carrier Trip Report                                           Supervisor completes input of workhours and
                                                                                     validates that all previous entries are correct.
                                                                                     This includes assignments of auxiliary carriers
                                                                                     on regular routes, leave codes, and any
                                                                                     mileage deviations.




                                                                                                          PS Form 1314, Regular
                                                                                                          Rural Carrier Time
                                                                                                          Certificate

                                                                                                          System Generated.

                                                      TACS
     eRMS
                                                      Supervisor
     Supervisor                                       manually inputs
     manually inputs                                  data from PS                                       PS Form 1314a, Auxiliary
     data from PS                                     Forms 1314 and                                     Rural Carrier Time
     Form 3971.                                       1314a.                                             Certificate

                                                                                                         Manually created by
                                                                                                         supervisor for each entry
                                                                                                         on PS Form 1234.


Source: OIG



                                                                  14
Rural Delivery Operations –                                                      DR-AR-14-001
 Mail Count and Timekeeping Processes


                    Appendix D: Index of Rural Timekeeping Forms

   PS Form 1234, Auxiliary Time Card – This form is used to record any type of work
    performed by a relief rural carrier other than when the relief carrier is working a full
    day on either a regular or an auxiliary rural route. Examples include casing mail,
    performing office work, performing street time on a route, delivering Express Mail,
    making collection runs, and so forth. The type of work the relief carrier performs
    must be recorded on the form on the proper day and date and with the proper clock
    rings.

   PS Form 1314, Regular Rural Carrier Time Certificate – Time credits and equipment
    maintenance information is transferred to this document from PS Form 4240 for both
    the regular rural carrier and any replacement carriers. The certificate is then
    submitted to the designated site for processing.

   PS Form 1314a, Auxiliary Rural Carrier Time Certificate – Time credits and
    equipment maintenance information are transferred to this document from PS
    Form 4240 for all time used on an auxiliary route. This form is used to document all
    auxiliary assistance performed by relief carriers.

   PS Form 3971, Request for Notification of Absence – Carriers prepare this leave
    form in writing and in duplicate. Supervisors approve or disapprove applications for
    leave by signing the form and giving a copy to the employee.

   PS Form 4240, Rural Carrier Trip Report – Carriers complete this form daily to
    record actual hours and minutes worked each day. Any deviation from the official
    route mileage and/or the reasons for any delay must be explained in the “Remarks”
    section.




                                              15
Rural Delivery Operations –                                   DR-AR-14-001
 Mail Count and Timekeeping Processes


                          Appendix E: Management's Comments




                                         16
Rural Delivery Operations –                  DR-AR-14-001
 Mail Count and Timekeeping Processes




                                        17
Rural Delivery Operations –                  DR-AR-14-001
 Mail Count and Timekeeping Processes




                                        18
